Joseph E. Richotte
248 258 1407
richotte@butzel.com
Stoneridge West
41000 Woodward Avenue
Bloomfield Hills, Michigan 48304
T: 248 258 1616 F: 248 258 1439
butzel.com

August 30, 2019
VIA EFILING
Scott S. Harris, Esq.
Clerk of Court
Supreme Court of the United States
One First Street NE
Washington, D.C. 20543
Re:

Turner v. Hines, No. 19-158
Consent for Submissions from Amici Curiae

Dear Mr. Harris:
Petitioners recently granted consent to the Thomas More Society, the Church of
the Lord Jesus Christ of the Apostolic Faith, and Bishop Kenneth Shelton to file briefs as
amici curiae under Rule 37.2(a).
Petitioners hereby consent to the filing of any briefs amici curiae in support of
either party or neither party, filed within the time limit allowed by the Court’s rules.
Respectfully submitted,
BUTZEL LONG, P.C.

Joseph E. Richotte
BH2782913.1

e:

Seth Rosenthal, Esq.
Counsel for Respondents

